HHS/OIG, Audit -"Review of Construction Cost Increases Related to the National Institutes of Health's Clinical Research Center,"(A-03-02-00371)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Construction Cost Increases Related to the National Institutes of Health's Clinical Research Center," (A-03-02-00371)
February 17, 2004
Complete
Text of Report is available in PDF format (604 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of construction
cost increases related to the Mark O. Hatfield Clinical Research Center, built on the Bethesda, Maryland, campus of the
National Institutes of Health.  Congressional funding for the project totaled $360 million, but costs increased significantly
over 6 years to a total estimated cost of $504.5 million.  The significant increase raised departmental and congressional
concerns which are addressed by our review.